                      Closeout of M91010009




that the first subject had reviewed one of his proposals to NSF and
had passed information in that proposal to the second subject. The
second subject in turn had used that information in preparing a
proposal that he submitted to an internal funding organization at
his institution. The complainant had a copy of that proposal and
also a copy of a proposal that the second subject had previously
submitted to the US Department of Agriculture.        That earlier
proposal allegedly showed that a certain research style and certain
ideas that the second subject used in the proposal to the
institution were not in his possession until they were supplied to
him by the first subject.
OIG asked the complainant to give more specific information about
the proposal to the institution and the USDA proposal so that we
could request copies and inspect them. The complainant agreed to
this, but over a period of more than a year he has failed to do it,
after numerous repeated requests and promises to comply. He once
explained that he was not interested in helping NSF with a
misconduct case as much as he was in preventing the subjects from
reviewing more of his proposals.      He has also confronted the
subjects at public meetings about what he considers defects in
their work. Most recently he explained that he has protected
himself by publishing the materials needed to establish his own
priority. OIG notified him that the case would be closed if the
requested informationw~btreceived by the end of 1991. Since the
                     4
information has not been received and since it is essential to any
possibility of pursuing the case, this case is now being closed
without any finding.




June 3, 1992

Copy: IG
      AIG-Oversight /'
